                                                  OIG-AR-05-00




    Audit Report No. OIG-AR-05-00

           EVALUATION

              OF THE

COMMISSION’S RECORDS MANAGEMENT

            March 6, 2001




                               Office of Inspector General
                               U.S. International Trade Commission
                                                                                                                   OIG-AR-05-00
                                                TABLE OF CONTENTS
                                                                                                                                   Page

I.      Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

II.     Objective . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

III.    Methodology and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

IV.     Current Structure of The Commission’s Records Management Program . . . . . . . . . . . . . 3

V.      Records Disposition . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

VI.     Records Inventory Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

VII.    Records Transmittal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

VIII.   Storage Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

IX.     Electronic Records Storage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

X.      Summary of Estimated Cost Savings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

XI.     Summary of Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

Appendix A -
      Table of Contents for General Records Schedules

Appendix B -
      USITC SF 115

Appendix C -
      Analysis of the Requirements of 36 CFR Chapter XII, SubChapter B

Appendix D -
      Iron Mountain Incorporated Rate Schedule

Appendix E -
      USITC Records in Contract Storage

Appendix F -
      Cost Savings by Category

Appendix G - Memorandum from the Director of Information Services to the Acting Inspector
General, dated February 23, 2001 (OIS-Y-003)

                                                                                               Office of Inspector General
                                                                                               U.S. International Trade Commission
                                                                                         OIG-AR-05-00




I.     INTRODUCTION

The maintenance of accurate records and the provision of citizen access to those records is an
important and indispensable government function in our American Democracy. This is particularly
true for an agency such as the United States International Trade Commission (Commission) which
collects and hears evidence upon which it makes decisions based on the nation’s trade laws. Parties
affected by these decisions must have access to this evidence to assure themselves of the fairness and
impartiality of the Commission’s rulings. Parties also need access to this evidence to defend
themselves or seek legal or regulatory relief in subsequent proceedings.

The existence of accurate, complete, and accessible records is also important to the effective and
efficient operation of the Commission. Such records preserve the Commission’s institutional memory
and facilitate informed decision making by the Commission’s officials and their successors. Such
records are also necessary to provide accountability of the Commission before the American public,
Congress, the General Accounting Office (GAO) and other oversight bodies.

Section 3101 of title 44 U.S.C. requires the head of each Federal agency to make and preserve
records containing adequate and proper documentation of the organization, functions, policies,
decisions, procedures and essential transactions of the agency. Also, this section is designed to
protect the legal and financial rights of the Government and of persons directly affected by the
agency’s activities.

The National Archives and Records Administration (NARA) is responsible for providing guidance
and assistance to Federal agencies to ensure adequate and proper documentation of the policies and
transactions of the Federal Government and to ensure proper records disposition. The General
Services Administration (GSA) is responsible for providing guidance and assistance to Federal
agencies to ensure economical and effective records management. NARA regulations are codified in
36 CFR Chapter XII, SubChapter B. Records management policies and guidance are contained in
records management handbooks, and other publications issued by GSA.




                                                                      Office of Inspector General
                                                                      U.S. International Trade Commission
                                                                                     OIG-AR-05-00
I.      INTRODUCTION (Continued)
“Records” include all books, papers, maps, photographs, machine-readable materials, or other
documentary materials, regardless of physical form or characteristics, made or received by an agency
of the United States Government under Federal law or in connection with the transaction of public
business. Materials are classified as either:

       Permanent Records - Any Federal record
                                                         Commission Records Currently Classified as Permanent
       that has been determined by NARA to have
       sufficient value to warrant preservation in      '   Publications
                                                        '   Press Releases
       the National Archives;                           '   Photographs and Biographies of Commissioners
       Temporary Records - Any record which             '   Minutes of the Commission (Microfiche Copies)
                                                        '   Official Docket Case Files (Microfiche copies)
       has been determined by the Archivist of the      '   Central Administrative Files (Procedural/Policy Documents)
                                                        '   General Counsel Memoranda
       United States to have insufficient value to      '   Index to General Counsel Memoranda
       warrant its preservation by NARA; or             '   Administrative Orders
                                                        '   Administrative Procedures
       Non-Record Materials - Those Federally           '   Budget Estimates and Justifications
       owned informational materials that do not
       meet the statutory definition of records (44
       U.S.C.§ 3301), such as extra copies of
       documents, stocks of publications, etc.

II.    OBJECTIVE

The objective of this audit was to determine the effectiveness of the Commission’s records
management program, whether it complies with the laws and regulations governing the management
of Federal records, and how it can be improved.

III.   METHODOLOGY AND SCOPE

We engaged Leon Snead & Company, P.C. to assist in conducting this review.

We conducted our audit from April 4, 2000 through November 15, 2000. It was conducted in
accordance with Commission Directive 1701.2, Audit and Inspection Policies and Procedures, and
the GAO’s government auditing standards. The audit concentrated on the examination of records
and interviews of appropriate personnel in the Office of the Secretary, Office of General Counsel,
Office of Finance, Office of Facilities Management, Office of Administration, Office of Information
Services (OIS), and Office of Economics. We visited the facilities of the contractor providing off-site
records storage for the Commission. We interviewed the General Manager and we made tests of the
accuracy of the contractor’s records. We also conducted an inventory of records stored on the P-1
Level of the Commission building and made appropriate tests of the accuracy of Commission records.

Telephone contact was made with NARA personnel to discuss issues relating to electronic records.
Discussions were also held with the successor contractor regarding their on-line database.




                                                                             Office of Inspector General
                                                  2                          U.S. International Trade Commission
                                                         OIG-AR-05-00
IV.       CURRENT STRUCTURE OF THE COMMISSION’S RECORDS MANAGEMENT
          PROGRAM

          Findings

Ultimate responsibility for the Commission’s records management program rests with the Chairman
as the head of the agency.1

The Commission currently has two Directives and one Administrative Notice in effect relating to its
records management program. USITC Directive 3150 (June 23, 1977), delegates to the Director of
Administration authority to implement the Records Management Program and designates him as the
agency’s Records Management Officer. Further, the directive gives him the authority to appoint
Records Management Liaison Officers within each office or division. However, USITC Directive
1017 (July 27, 1998), sets forth the mission and functions of the Office of Information Services (OIS)
and lists the Commission’s records management program as one of its functions. In Administrative
Notice ITC-N-3150 (May 4, 2000), the Director of Administration names the individual Records
Liaison Officers.

A review of the position description of the Director of Administration indicated no responsibilities
specifically related to records management. However, the position description for the Director of
Information Services, indicated that one of his principal duties and responsibilities is to oversee and
direct the records management program of the agency.

Although the Director of Administration is designated as the Records Management Officer by
Directive 3150, the “Senior Records Management Specialist,” an employee in OIS, in fact implements
the Commission’s Records Management Program.2 According to her position description, the Senior
Records Management Specialist’s responsibilities lie exclusively with Records Management.3 More
specifically, she is designated as the Commission’s Records Officer for purposes of liaison with
NARA and is responsible for overall planning, coordination and operation of the records management
program. We found that although she retains the knowledge and expertise on records management,
in fact, the Commission has engaged in very little active records management.




      1
      See 19 U.S.C. § 1331 administrative decisions of the Chairman may be disapproved by a majority vote of the
Commissioners.
    2
      Note that the individual charged with implementing the Commission’s Records Management Program does not
report to the individual with specific delegated authority.
    3
      The Director of OIS commented that the Senior Records Management Specialist has multiple responsibilities
and that her position description is not an accurate description of her overall responsibilities.

                                                                             Office of Inspector General
                                                       3                     U.S. International Trade Commission
                                                        OIG-AR-05-00
IV.       CURRENT STRUCTURE OF RECORDS MANAGEMENT PROGRAM (Continued)

Since 1994, the Commission has contracted for off-site storage of its records. The current contractor
is Iron Mountain, Inc., which acquired the previous contractor, Data Storage Centers in May 2000.
The records storage contract does not include the designation of a Contracting Officer’s Technical
Representative (COTR), who would normally provide detailed direction of the contractor on behalf
of the Commission’s Contracting Officer. However, some of the duties associated with a COTR are
being performed by the Facilities Management Specialist in the Office of Administration. His position
description indicates that he is responsible for overseeing the records storage contract, directing and
guiding lower graded staff on requesting records that are to be retrieved from storage and on records
that are to be retired to the records center, and reviewing and approving payment for billing. Current
duties do not include verifying the accuracy of the contractor’s inventory, insuring disposal of records
according to schedule or requiring proper entry of storage box identification information. In fact,
according to his position description, oversight of the records storage contract is only a small part
of the total responsibilities assigned to the Facilities Management Specialist.

We note that in 1993 when OIS was transferred from the Office of Administration to the Office of
Operations,4 the organizational move was not accompanied by a clear division of responsibilities for
records management between OIS and Office of Administration. As a result conflict and confusion
of responsibilities exists. We found that in limited circumstances “records management” is performed
in the Commission by individual offices. As outlined by our findings below, this type of records
management is failing because of a lack of centralized coordination and direction.

In our review of the structure of the Commission’s records management program, we applied
NARA’s government wide regulations codified at 36 CFR Chapter XII, SubChapter B. In general,
the Commission’s program has fallen short in compliance with these regulations. Specifically, we
found that the Commission’s program is not in compliance with: 5

•         The requirement for periodic evaluation of the records management program;
•         The requirement to issue a directive establishing program objectives;
•         The requirement for record keeping training;
•         The requirement to identify, develop, issue and periodically review record keeping
          requirements for records in all media. Requirements are needed relative to evidentiary
          material that is in the form of a product rather than a written document and for image records
          produced by the Commission’s Electronic Imaging System (EDIS);
•         The requirement to formally specify official file locations for all records in all media and
          prohibit maintenance in other locations; and
•         The requirement for periodic reviews of the records maintenance program.


      4
       See Appendix V of Audit Report OIG-AR-01-00, Review of the Commission’s Information Resources
Management Function, for an overview of the move of OIS from the Office of Administration.
http://www.usitc/gov/oig
     5
       Appendix C provides a detailed listing of the requirements of 36 CFR Chapter 12, SubChapter B and our findings
and conclusions regarding USITC compliance with these requirements.

                                                                                Office of Inspector General
                                                         4                      U.S. International Trade Commission
                                                     OIG-AR-05-00
IV.    CURRENT STRUCTURE OF RECORDS MANAGEMENT PROGRAM (Continued)
       Conclusions

The above findings support the following conclusions concerning the Commission’s current structure
for records management:

•      There is ambiguity concerning who is actually in charge of the records management program
       and an accompanying lack of centralized direction for the program.
•      Assigned records management functions are not being performed with sufficient effectiveness
       to meet the requirements of Federal Regulations.
•      The current Commission records management program is not in compliance with Federal
       Regulations.

       Recommendations

With respect to the Commission’s structure for records management, we recommend that:

       1.      The Director of OIS amend the position description of the “Senior Records
               Management Specialist” to accurately reflect the duties of her position including the
               additional duties of administering the records storage contract and serving as the
               Contracting Officer’s Technical Representative for the records storage contract.

       2.      The Director of Administration amend the position description of the Facilities
               Management Specialist to reflect his role in facilitating the transfer of records within
               the Commission.

       3.      The Director of OIS develop and administer a plan to provide adequate training of all
               Commission personnel on policies, responsibilities and techniques for implementation
               of record-keeping requirements.

       4.      The Director of Administration and Director of OIS revise USITC Directive 3150:

               a.     To assign responsibility for the records management program to the Director
                      of OIS and to designate him as the Commission’s Records Management
                      Officer. (Based on Chief Information Officer (CIO) responsibilities under the
                      Paper Work Reduction Act, this function should reside within the new CIO
                      office. Thus, this recommendation would be consistent with that concept and
                      consistent with our discussions later in this report on electronic records
                      management.);
               b.     To state the objectives of the Commission’s records management program;
               c.     To require an annual evaluation of the Commission’s records management
                      program and an annual review of its records maintenance program, including
                      an annual inventory of all records in contract storage;



                                                                      Office of Inspector General
                                                  5                   U.S. International Trade Commission
                                                    OIG-AR-05-00
IV.   CURRENT STRUCTURE OF RECORDS MANAGEMENT PROGRAM (Continued)

          d.   To assign the records management responsibilities of employees and office
               directors. Responsibility to implement the records management program at
               the office level should reside with the Office Director, eliminating the Records
               Management Liaison Officer. (Office directors may choose to further delegate
               this responsibility.)
          e.   To specify official file locations and prohibit maintenance of records in
               unauthorized locations.




                                                              Office of Inspector General
                                          6                   U.S. International Trade Commission
                                                                                          OIG-AR-05-00
V.     RECORDS DISPOSITION

       Findings

Disposal of any permanent or temporary records must be in accordance with a records schedule
approved by NARA. The records schedules consist of a General Records Schedule issued by NARA
and, if necessary, a Standard Form 115 (SF 115), Request for Disposition Authority, approved by
NARA. General Record Schedules provide retention and disposition instructions for broad categories
of records (see Appendix A). SF 115s are tailored to the specific record requirements of individual
Federal agencies and cover records not included in general schedules or for which agency
requirements differ from those set forth in the general schedules (see Appendix B for the current
USITC SF 115). The SF 115 takes precedence over General Record Schedules. The approved
record’s schedules are mandatory.

An initial record schedule was included in USITC Directive 3150 dated June 23, 1977. This directive
identified which types of records were to be considered temporary and which types permanent along
with their respective schedules for destruction or transfer to NARA. This directive also indicated that
permanent records were to be microfiched.

An SF 115 submitted to and approved by NARA on May 1, 1978 provided a comprehensive update
of the disposition schedules for program related records. This SF 115 also provided that the Minutes
of the Commission and official docket case files were to be microfilmed and the original and one copy
of the microfilm offered to NARA. It also provided that the Commission minutes would be
destroyed after microfilming when no longer needed for administrative purposes. The docket files
were to be destroyed after 25 years, assuming microfilm had been prepared. The SF 115 did not
indicate that other types of permanent records were to be microfilmed, only that depending on the
type of permanent record, they would be offered to NARA after a 5 to 20 years retention period.

A revised SF 115 was approved by NARA on September 20, 1983 which provided that docketed case
files would be destroyed after microfilm had been verified. A revised SF 115 dated June 9, 1989,
provided a schedule for transferring microfiche copies of official docket case files first to the
Washington National Records Center on an annual basis, and then to the National Archives when 75
years old. The next and most recent revision to the SF 115 was dated October 1, 1997 and provided
a disposition schedule for files maintained by the Office of the Secretary on investigations of possible
violations of Administrative Protective Orders and Commission rules.

The SF 115 and its revisions refer to the storage of Commission records at the Washington National
Records Center, which is administered by NARA. However, since 1994, the Commission has been
using a contract facility for records storage, not the Washington National Records Center. Although
the SF 115 and its subsequent revisions made significant changes to the records disposition schedules
contained in USITC Directive 3150, those changes are not reflected in the directive either directly
or by reference to the SF 115.




                                                                       Office of Inspector General
                                                   7                   U.S. International Trade Commission
                                                                                            OIG-AR-05-00
V.          RECORDS DISPOSITION (Continued)


A major portion of the Commission’s records in storage are “permanent” records belonging to the
Office of the Secretary and the Office of General Counsel. Permanent records may not be destroyed
when they cease to be needed for the management of the organization. They must be stored and
accounted for until transferred to NARA, and may require conversion to a media acceptable to
NARA prior to the transfer. Clearly the cost of managing permanent records is greater than that for
temporary records which can be destroyed when they are no longer needed for management of the
agency. A review of the material included in the Commission’s permanent records should be made
to determine whether material is included which does not meet the requirements for permanent
records because of the nature of the material or because it is available in other records. Guidance on
the classification of permanent records is provided in Appendix C of the NARA web-based Handbook
entitled “Disposition of Federal Records.” Reclassification of permanent records would require the
approval of NARA.

According to USITC Directive 3150, the Commission is to annually prepare records for retirement,
prepare files for the microfiche program, and prepare records for transfer to the records center and
NARA. We found that offices are not reviewing and retiring records on an annual basis. Records
generally are retired when required by a lack of file space. The microfiche program has not been in
operation since 1996 at which time it was discontinued as a cost reduction measure, and no records
have been transferred to the NARA since 1997.

We specifically applied the requirements of 36 CFR Chapter 12, SubChapter B and found that the
Commission’s program is not in compliance with the requirements to :6

•           insure that records no longer needed for current use are promptly disposed of or retired;
•           implement the approved records schedules and destruction schedules dates; and
•           transfer permanent records to NARA after the period specified in the SF 115.

            Conclusions

The above findings support the following conclusions on records disposition:

•           The Commission is not in compliance with mandatory requirements for disposition of records.
•           Current Commission Directives do not provide adequate guidance for disposition of records,
            and such guidance as is provided is not consistent with NARA guidance.




     6
         See footnote 3.

                                                                         Office of Inspector General
                                                     8                   U.S. International Trade Commission
                                                                                        OIG-AR-05-00
V.     RECORDS DISPOSITION (Continued)

       Recommendations

With regard to records disposition, we recommend that:

       4f.    The Director of Administration and Director of OIS, revise USITC Directive 3150
              to resolve conflicts in retention and disposition schedules that now exist between this
              directive and the SF 115 and General Records Schedules. The revised Directive
              should incorporate the SF 115 and General Records Schedules by reference and
              require that records be disposed of in accordance with these controlling documents.

       5.     The Director of OIS, in conjunction with the Secretary to the Commission and the
              General Counsel, review material included in permanent records to ensure it meets the
              criteria for that classification, and if not, request approval of NARA to reclassify the
              material.

       6a.    The Director of OIS, enlisting office directors as necessary, initiate an immediate
              review of records in contract storage to bring currently stored Commission records
              into compliance with the disposition schedules of the SF 115 and applicable General
              Records Schedules by June 29, 2001.




                           NARA’s Washington National Records Center, Suitland, MD




                                                                     Office of Inspector General
                                                 9                   U.S. International Trade Commission
                                                                                         OIG-AR-05-00

VI.    RECORDS INVENTORY MANAGEMENT

       Findings

The Commission currently stores records at an off-site contract storage facility (contract storage),
in individual offices, and in a level P-1 storage area.

               1.      Records in Contract Storage

The current contractor, Iron Mountain, Inc., stores the Commission’s records at a storage facility in
Jessup, Maryland.

The Commission does not have a centralized system for records inventory management. The Facilities
Management Specialist who oversees the records storage contract receives a listing of all Commission
records in the contractor’s inventory once a year. However, this listing is not updated as boxes are
added or removed from inventory. Also, the contractor’s inventory is not checked for accuracy, since
a separate listing of what should be in the inventory is not maintained. Individual offices are relied
upon to keep track of their own records in contract storage.

Among Commission offices there is no uniform method of keeping track of records in contract
storage. For example, the Office of the Secretary, the largest holder of records in contract storage
maintains a database of its records in contract storage and level P-1 storage area. The Office of
General Counsel, the second largest holder of records in contract storage, maintains a WordPerfect
file of its records in contract storage. However, most Commission offices do not keep any inventory
of their records in contract storage.

The contractor maintains a record of Commission material in its custody and makes this data available
through an on-line database accessible through the internet at http://www.safekeeperplus.com.
Commission users with passwords can order reports on current inventory, destruction eligibility, and
several other topics. The contractor currently charges $25 for each report requested. Once a year,
the contractor provides at no charge a total inventory report.




                                       Records Storage Facility

                                                                      Office of Inspector General
                                                 10                   U.S. International Trade Commission
                                                                                           OIG-AR-05-00
VI.     RECORDS INVENTORY MANAGEMENT (Continued)

There is no evidence that the accuracy of the contractor’s records of Commission material in contract
storage is being verified. In view of the lack of inventory records in some offices and the unreliability
of the records of others, the accuracy of the contractor records is critical. The contractor records
determine the monthly storage bills and largely determine whether records will be disposed of in
accordance with the approved NARA retention schedules.

To test the accuracy of the information recorded in the contractor’s inventory database, we selected
102 boxes belonging to nine different offices. We attempted to locate those boxes in the contractor’s
warehouse and compare the information submitted to the contractor with that information actually
contained in the contractor’s record. We found:

•       Sixteen boxes were not located. Contractor records indicated that they had been removed
        from contract storage. The dates of removal ranged from March 1997 to June 2000.
        Fourteen of these boxes belong to the Office of Equal Employment Opportunity and were
        either destroyed or retained in that office. The offices owning the other two boxes have no
        record of the boxes being removed from contract storage, but assume the boxes were
        destroyed. The contractor was not notified that the boxes would not be returned to contract
        storage, so the boxes remain on the inventory records, and monthly storage fees continue to
        be billed. Commission personnel were not aware that boxes remain on the contractor
        inventory and storage fees are assessed unless the contractor is informed that the boxes will
        not be returned to contract storage. Continued payment of storage fees for material removed
        from storage for less than a full billing cycle (one calendar month) is reasonable, but we find
        it wasteful of resources to continue to pay for storage fees for longer periods.
•       The wrong general schedule is indicated for 10 boxes. Although the wrong schedule is cited,
        it does not affect the record retention as the correct schedule has the same retention period
        as the one used.
•       No review date is recorded either on the box or on the contractor’s records for 38 boxes.
•       The contractor records do not show a review date for seven boxes although a date is recorded
        on the label.




                    Interior and Exterior Views of the Contract Storage Facility

                                                                        Office of Inspector General
                                                   11                   U.S. International Trade Commission
                                                                                           OIG-AR-05-00
VI.     RECORDS INVENTORY MANAGEMENT (Continued)

•       Ten boxes contain reels of magnetic computer tape that have been stored in the general
        warehouse since February 1988. No review date has been assigned for these boxes and the
        dates of the records are shown as ranging from January 1978 to December 1988.
•       Two boxes contain evidentiary material from cases that are not in the form of documents.
        One has large double-sided floppy disks and the other has plastic puzzles. The SF 115
        approved by NARA does not mention material in these media.

We also reviewed the contractor’s monthly invoices for FY 2000. We found one significant error.
From September 1999 until January 2000, the invoices showed the number of boxes being stored for
the Office of Unfair Import Investigations to be 1000 greater than the actual number being stored.
This error was corrected in the contractor’s invoice dated February 03, 2000. However, the
Commission has yet to be reimbursed for excess storage charges prior to that date.

                2.      P-1 Level Records Storage

The level P-1 storage area is used by the Office of Secretary for records storage. This area occupies
approximately 2075 sq. ft. and also includes a small amount of space for the Secretary’s forms and
supplies. It is adjacent to another area on level P-1 of approximately 1725 sq. ft. that is used to store
Commission office supplies.




                                Three views of the P-1 Storage Area




                                                                        Office of Inspector General
                                                   12                   U.S. International Trade Commission
                                                                                              OIG-AR-05-00
VI.     RECORDS INVENTORY MANAGEMENT (Continued)

On November 15, 2000, we conducted an inventory of the records being stored in the level P-1
storage area assigned to the Secretary’s office. This
inventory revealed a total of 863 record storage boxes       OIG Inventory of P-1 Level Records
with labels. An additional 110 boxes were counted                      November 15, 2000
which did not have labels but which did have
                                                       Box Description                   Num of Boxes
identifiable box numbers. An estimated 200 boxes
which did not have either labels or box numbers were   W/ Labels - W/ Box Numbers         863
not counted. The inventory revealed 30 instances in    W/O Labels - W/ Box Numbers        110
which two boxes were assigned the same box number.
                                                       W/O Labels - W/O Box Numbers       200 (est.)
It was noted during the inventory that boxes were not
arranged in any particular order on shelves and that               TOTAL                 1173 (est.)

many boxes were stacked in the aisles between shelves.

To evaluate the accuracy of the Commission’s records of material in level P-1 storage area, we tested
the database maintained by the Office of the
Secretary with the data from our inventory.
                                                                     OSE Record Boxes in Storage
We found that the database indicated only 152             Comparison of OSE Database With OIG Inventory
boxes located in the level P-1 storage area,
whereas our inventory revealed an estimated                                            P-1     P-1 & Off-Site
1173 boxes. We also compared the total              Inventory-# of Boxes             1173               3191
number of boxes in the database that were           OSE Database # of Boxes            152              4879
listed as not having been destroyed with the
                                                    Difference                       1021               1688
total number of boxes on hand in the level P-1
storage area and in contract storage. The
database indicated a total of 4879 boxes on
hand, whereas the number of boxes belonging to the Secretary in level P-1 storage area and contract
storage was estimated at 3191. We also found 213 boxes in our inventory that were not included
in the database. These disparities indicate significant inaccuracies in the database records.

                3.       Improving Inventory Management

Greater accountability and control of records could be achieved if a common data record were
adopted to maintain and track the inventory of records in storage for all Commission offices. Such
a record should be maintained at a central location to facilitate uniformity and consistency of data
such as codes to indicate the owning office, box numbers, locations, applicable disposition schedule,
review date, etc. The Records Management Officer could use such a record to provide reports to
management which would show program status. The reports could show record storage costs
attributable to individual offices as a matter of management information. Further efficiencies could
be achieved if the Commission database were interoperable with the contractor’s on-line database.
This would allow common data entry and efficient discovery and resolution of any discrepancies
between the two databases.



                                                                           Office of Inspector General
                                                     13                    U.S. International Trade Commission
                                                                                         OIG-AR-05-00
VI.    RECORDS INVENTORY MANAGEMENT (Continued)

       Conclusions

Based on the above findings, we conclude that:

•      The Commission does not have an overall system for records inventory management.

•      There is no uniformity in the systems used by individual offices in keeping track of their
       records in contract storage. Most offices have no system at all.

•      Neither the Commission nor the contractor has reliable inventories of the Commission’s
       records in contract storage.

•      The Commission is paying storage costs for records no longer held by the contractor, and
       records remain in contract storage beyond the authorized retention period.

•      The Commission’s records are sufficiently inaccurate as to make it very difficult to locate and
       provide ready access to records in contract storage.

       Recommendations

With respect to inventory management, we recommend that:

       6.     The Director of OIS, enlisting office directors as necessary, initiate an immediate
              review of records in contract storage to:

              a.      (see page 9);
              b.      Determine the appropriate review dates for records for which the contractor
                      records show no review date and ensure that appropriate disposition action
                      is taken;
              c.      Determine what records have been removed from storage and ensure that they
                      are removed from the contractor’s inventory;
              d.      Determine what records are in storage that have been microfilmed and for
                      which NARA has authorized destruction after verification of the microfilm
                      and take appropriate disposition action;
              e.      Insure that offices update the records for boxes remaining in storage to add
                      any necessary information that is missing or incomplete; and
              f.      Report the results of this effort to the Chairman as a follow-up to this review.

       7.     The Director of OIS provide a Commission wide information technology solution to
              automate the administrative requirements imposed on Office directors to implement
              proper records management. As a part of that information technology solution, an
              efficient method at the Commission level should be devised to reconcile Commission
              records with the records of contract storage to allow for proper administration of the

                                                                      Office of Inspector General
                                                 14                   U.S. International Trade Commission
                                                                                     OIG-AR-05-00
VI.   RECORDS INVENTORY MANAGEMENT (Continued)

           contract. The information technology solution should provide for common data
           elements for the records of all offices and compatibility with the contractor’s
           database, allowing single entry update of both databases.

      8.   The Director of OIS seek approval of NARA for a modification to the SF 115 which
           identifies the existence of products in addition to documents as part of the evidentiary
           material in cases and provides appropriate disposition instructions for such material.

      9.   The Director of Administration seek recovery of excess storage charges from the
           contractor.




                    Record “stacks” at the contract records storage facility



                                                                  Office of Inspector General
                                             15                   U.S. International Trade Commission
                                                                                       OIG-AR-05-00

VII.   RECORDS TRANSMITTAL

       Findings

In the past, Commission offices were required to complete a USITC Form 101 for each box sent to
contract storage. One copy of the USITC Form 101 was affixed to the storage box, one copy retained
and one copy went to the contract administrator in the Office of Facilities Management. The
information required by this form included the box number, the retention schedule number, the office
symbol, the record title (description),
whether the box contained business
confidential information, the date of the      The Commission has at least 143 boxes of records
records, the action date (date disposition     containing documents dated prior to 1970.
action is to be taken), and the nature of the  Permanent records more than 30 years old must be
disposition action to be taken (transfer to    transferred to the National Archives unless the
NARA; send to microfilm and send to            Chairman of the Commission certifies in writing the
shredder; destroy; or archive). The            need to retain these records. (36 CFR 1228.264).
completed form was used by the contractor
to record information to the contractor’s
database.

In regards to the use of USITC Form 101 we found:

•      Very little data consistency in box numbering and use of office symbols / codes
•      Lack of inclusion of retention schedule number and destruction dates
•      Incomplete records dates, records descriptions, and action dates
•      Lack of specifying type of disposition action




                       ITC Storage Box at records storage facility without
                              disposition instructions on Form 101




                                                                    Office of Inspector General
                                                16                  U.S. International Trade Commission
                                                                                                 OIG-AR-05-00
VII.      RECORDS TRANSMITTAL (Continued)

This process resulted in duplicate box numbering, “best guess” judgements by the contractor as to
the ownership of records and improper data entry on the part of the contractor.

To test the completeness of descriptive information for boxes in contract storage, we reviewed the
contractor’s database as of April 27, 2000 7. As of that date, the database listed 7665 boxes belonging
to the Commission. A review of the information in the database disclosed the following:

•         3284 boxes with no review date. Thus, these boxes
          will never appear on the report of boxes due for
                                                                       7665 Boxes in Contract Storage
          review for disposition instructions.                                  (April 27, 2000)
•         539 boxes with expired review dates.                  '3284 boxes -no review date
•         143 boxes are indicated as containing documents '539 boxes -expired review dates
                                                                '143 boxes -beyond records schedule prior 1970
          dated prior to 1970. The oldest is dated January      '91 boxes - no description
          1917. Note that permanent records more then 30
          years old must be transferred to the National
          Archives unless the Chairman of the Commission certifies in writing the need to retain these
          records. (36 CFR 1228.264)
•         91 boxes contain no description of the contents.

The approximate annual cost of storing the records with no review dates or expired review dates is
$9,500.

We also found the description of the records
in contract storage was such that Commission                     Annual Storage Costs of Boxes with
personnel we interviewed stated that they                           Expired or No Review Dates

would not make a decision to destroy records                                     # of       Yearly Cost
                                                                                 Boxes      =($2.40 x # of boxes)
based on the description contained in the
contractor’s database. As a result, they have       No Review Date               3284       $7,881.60

boxes sent from storage, open them and              Expired Review Dates         539        $1,293.60
examine the contents before deciding whether        Beyond Records Schedule      143        $343.20
to dispose of or retain the records. This
results in service charges to remove boxes
from storage, deliver boxes for examination,
and if necessary, to return them to storage. In addition, if the contractor is not notified that boxes
are being removed permanently, monthly storage charges continue.




    7
        See Appendix E for a summary of the contractor’s database.
                                                                              Office of Inspector General
                                                        17                    U.S. International Trade Commission
                                                                                          OIG-AR-05-00
VII.   RECORDS TRANSMITTAL (Continued)

Recently, the contractor introduced a new procedure for identification of record boxes to be placed
in storage. This procedure involves removing the detachable bar code label from the transmittal form
and attaching the label to the box. Box identification information is then entered into the contractor’s
on-line database. Mandatory fields that must be completed include bar code number, customer box
number, and destruction date. Other fields allow entry of information describing the contents of the
box. After the required data has been entered, the contractor will receive an on-line order to pick up
the box for storage. This procedure is an improvement over the previous Form 101 in that boxes will
not enter storage without proper identification and disposition instructions.




                           Iron Mountain Inc. Records Transmittal Form

Users of the contractor’s on-line database can also request delivery of boxes from contract storage.
Delivery of boxes can be accomplished in as little as two hours from the time of an on-line request.
Other tasks that can be accomplished on-line include editing of box descriptions, inventory research,
and invoice inquiries.

       Conclusions

With respect to records transmittal, we conclude that:

•      The identifying information Commission offices have been providing in submitting their
       records to contract storage is inadequate for effective records management.
•      The Commission has a non-uniform and inconsistent system for number identification of
       record boxes submitted for contract storage.
•      The contractor’s on-line database has potential for improving the identification information
       for record boxes submitted for contract storage.




                                                                       Office of Inspector General
                                                  18                   U.S. International Trade Commission
                                                                                       OIG-AR-05-00
VII.   RECORDS TRANSMITTAL (Continued)

       Recommendations

To improve the records transmittal process, we recommended that:

       10.    The Director of OIS work with the contractor to make retention schedule and record
              descriptions mandatory fields in the contractor’s databases.

       11.    The Director of OIS establish a new uniform storage box numbering system to be
              used by all offices which, at a minimum, will include identification of the Year in
              which a box was created and the office that created it.

       12.    The Director of OIS obtain and provide to offices a password to access the
              contractor’s on-line database and also provide a mandatory training session for office
              representatives on use of the on-line database.




                                                                    Office of Inspector General
                                               19                   U.S. International Trade Commission
                                                                                                 OIG-AR-05-00
VIII. STORAGE COSTS

       Findings

The contractor bills monthly for the number of boxes in contract storage and for itemized services
such as receipt of boxes, removal of boxes, etc. The billings are based on the contractor’s rate
schedule. Although the contractor can break out the monthly bills to show record storage costs
attributable to individual offices for management information purposes, we found that the
Commission is currently not taking advantage of this free service. Additionally, we found that the
Commission was incurring interest charges because of late payment of invoices. The Prompt Payment
Act requires payment of invoices within 30 days of receipt. If payment is not made within 30 days,
the Commission must pay interest at a rate specified by the Treasury.

We also found that the records storage contract is written as though it were a fixed price contract.
For example, contract ITC-PO-00-0005, which was issued November 9, 1999, calls for the contractor
to provide records storage and retrieval for the period October 1, 1999 through September 30, 2000.
The total amount of the award is stated as $5,000. However, the $5,000 represented only the
estimated cost for the first quarter. Subsequent modifications were issued to bring the total amount
up to $20,000 for the fiscal year. Understating the expected amount of the records storage contract
leads to inaccuracy in statements of obligations and can also lead to inefficiencies in the budgeting
process. The records storage contract makes no mention of the rates the contractor is to charge for
storage and other services, and the contract file does not contain a copy of the contractor’s rate
schedule.

For Fiscal Year 1999, the billings from the storage contractor totaled $23,282. For Fiscal Year 2000,
billings totaled $24,133. Thus, the cost of the records storage contract is currently averaging just
over $2,000 per month. It is important to note that these costs include more than just the charges
for keeping records in the warehouse. Each time records are placed in or removed from the
warehouse there are service charges. If the contractor picks up or delivers records, there are service
charges. Based on the above billings, about $1,600 of the monthly charges was for storage and $400,
or 20 percent, was for services.

Appendix D shows the current contractor rate
schedule. Of particular note is the total fee                          Single Box Destruction Costs
associated with destroying boxes in contract
storage. If a single box is to be retrieved from                             Destroy at USITC     Destroy Off-Site

contract storage, returned to the Commission             Retrieval           $ 1.19               $ 1.19
for inspection and destroyed at the Commission,          Transportation      $16.20               $ 0.00
the contractor fees are $1.19 for retrieval,
                                                         Remove from         $ 3.00               $ 3.00
$16.20 for transportation/delivery, and $3.00            Database
for permanent removal from the contractor’s
                                                           TOTAL             $20.39               $ 4.19
database for a total charge of $20.39. If the box
is sent back to the contractor for destruction,



                                                                              Office of Inspector General
                                                    20                        U.S. International Trade Commission
                                                                                              OIG-AR-05-00
VIII. STORAGE COSTS (Continued)

the total charge is $36.59. Lesser per-box transportation charges are incurred for handling multiple
boxes. If the contractor destroys the box at the storage facility, the charges are $1.19 for retrieval
and $3.00 for destruction, or a total of $4.19. To minimize costs the following rules should be
observed:

•      If possible, boxes should be retrieved and destroyed at the contractor’s facility.
•      If possible, boxes should be transported to and from the Commission in multiple box
       shipments.
•      Destroyed boxes should be removed from the contractor’s database as soon as possible.
•      Larger boxes are preferable to smaller boxes because they incur lesser total service fees for
       the same amount of storage capacity.
•      If possible, boxes with existing contractor identification numbers should be reused for new
       storage.

Most of the 2075 sq. ft. of level P-1 storage area assigned to the Secretary’s office is being used to
store record boxes. The current rental rate in the building is $30 per sq. ft. The rental of this space
thus adds about $62,250 per year to the cost of record storage. Based on our recent inventory, this
amounts to an annual storage cost of approximately $50 per box, or approximately 20 times the $2.40
per box annual cost for contract storage. This suggests that the Commission should re-evaluate the
use of the level P-1 storage area for record storage.

Use of the level P-1 storage area to store records for a period before they are transferred to contract
storage appears to be unnecessary and costly. This is particularly true because the Secretary’s office
is scanning these records into its Electronic Document Imaging System (EDIS) system where they
are available for review in lieu of the paper copies. Our recent inventory indicated approximately 1200
boxes were being stored in the level P-1 storage area. Moving these boxes to contract storage at an
annual storage cost of $2,880 (1200 x $2.40) would make space costing $62,250 annually available
for other use.
                                                                            Cost to Store Records
In summary, the total cost to store records is
approximately $7,100 per month, or about $86,000 per                                          FY1999 FY2000
year.                                                         Contract Storage (FY1999) $23,282 $24,133
                                                              Cost of P-1 space          62,250 62,250
       Conclusions
                                                              Total Cost                      $85,282 $86,383

The above findings support the following conclusions          Monthly Average Cost             $7,128     $7,199
concerning storage costs:

•      As currently written, the Commission’s records storage contract does not provide an accurate
       or complete description of services to be provided.




                                                                           Office of Inspector General
                                                  21                       U.S. International Trade Commission
                                                                                             OIG-AR-05-00
VIII. STORAGE COSTS (Continued)
•     It costs more to store records on the level P-1 storage area than at the contract storage
      facility.
•     The contractor’s rate schedule should be considered in managing the costs of records storage,
      retrieval and destruction.

       Recommendations

With regard to records storage costs, we recommend that:

       13.     The Director of OIS request from the contractor a breakout of the monthly invoices
               by office and circulate the relevant portions to the offices concerned.

       14.     The Director of Administration allocate storage costs to offices for management
               reporting purposes.

       15.     The Director of Administration initiate procedures for timely payment of contractor
               invoices so as to avoid interest charges.

       16.     The Director of Administration ensure that the records storage contract reflects the
               total estimated cost of the contract, that it is not a fixed price contract and that billings
               are to be based on a rate schedule which is made a part of the contract.

       17.     The Director of OIS, in consultation with the Secretary and Office of Administration,
               develop and implement a schedule for phasing out the use of level P-1 storage area
               for records storage.

       18.     The Director of OIS inform Office Directors of the charges incurred in regards to the
               storage contractor’s rate schedule and request that they develop an appropriate policy
               for minimizing the costs of records storage, retrieval, and destruction for their
               respective offices.




                                                                          Office of Inspector General
                                                   22                     U.S. International Trade Commission
                                                                                           OIG-AR-05-00
IX.     ELECTRONIC RECORDS STORAGE

        Findings

Electronic records storage and retrieval technology offers opportunities for adopting records
management procedures that would be more efficient and less costly than those now in use by the
Commission. The use of electronic records storage has been encouraged by recent legislation. The
Government Paperwork Elimination Act (GPEA) of 1998 provides that:

                Electronic records submitted or maintained in accordance with
                procedures developed under this title, or electronic signatures or other
                forms of electronic authentication used in accordance with such
                procedures, shall not be denied legal effect, validity, or enforceability
                because such records are in electronic form.

Since enactment of GPEA, NARA has issued general guidelines for electronic record storage. An
example is a NARA publication entitled “Records Management Guidance for Agencies Implementing
Electronic Signature Technologies (GPEA).” This publication stresses that there are various
approaches agencies can use to insure the trustworthiness of electronic-signed records over time and
that agencies should choose an approach that is practical for them and that will fit their business needs
and risk assessment. Whatever approach an agency selects for electronic records storage must be
approved by NARA.

Almost all of the records produced by the Commission could eventually be stored in electronic form
if approved by NARA. Records classified as temporary in nature, such as working papers, drafts of
publications and technical reference files, are normally created in electronic, e.g. WordPerfect, format.
With NARA agreement, paper copies of these files could be destroyed almost immediately and the
electronic copies preserved until the specified destruction date.

Electronically scanned files of some permanent records, such as docket files, are presently being
created using the Commission’s EDIS. With NARA approval, the EDIS electronic copies of these
documents could be retained and the paper copies destroyed or transferred to the National Archives.
At the end of the specified retention period, the electronic copies could be destroyed or transferred
to the National Archives, if requested by NARA. If for some reason NARA did not approve storage
of EDIS copies of records, it would be necessary for the Commission to consider microfiching either
the EDIS or paper copies, since under the current SF 115, NARA will only accept microfiche copies.

As the Commission implements electronic filing, receipt of paper copies of such filings will not exist.
Thus, the Commission must plan for and begin to implement electronic storage options with NARA
approval. In order to allow this option, the EDIS replacement, as well as other information systems
acquisitions, need to consider electronic storage requirements as an important objective.




                                                                        Office of Inspector General
                                                   23                   U.S. International Trade Commission
                                                                                             OIG-AR-05-00
IX.     ELECTRONIC RECORDS STORAGE (Continued)

The Commission’s near term strategy for implementing electronic records storage should be directed
toward obtaining NARA approval for the use of an electronic format for the Commission’s own
internal record storage purposes. If such approval were obtained, the Commission could almost
immediately destroy paper copes of temporary records for which it had electronic copies. It could
also send paper copies of its permanent records to the national Archives after only a minimal retention
period, assuming it had made electronic copies of these records. The result would be that most of
the Commission’s records would be in electronic form, with a consequent reduction of storage costs
and significant improvement in the organization and timely retrieval of records.

The Commission’s longer term strategy should be to obtain approval from NARA for the use of an
electronic format for both internal and archival purposes. This would allow the Commission to accept
electronic filings which could be retained by the Commission for its internal record storage purposes
and submitted to NARA for archival purposes. This would completely avoid the necessity for
handling or storing paper copies of these records.

Any Commission efforts to make greater use of electronic storage must consider NARA requirements
for trustworthiness of records, including reliability, authenticity, integrity, usability and preservation.
Also, the Commission must seek specific approval for use of electronic storage from NARA through
submission of a revised SF 115.

        Conclusion

Electronic storage is by far the preferred method of retaining Commission records, provided an
adequate level of trustworthiness and NARA approval can be obtained.

        Recommendations

With regard to electronic records storage, we recommend that:

        19.     The Director of OIS incorporate in the Commission’s IRM Strategic Plan an objective
                of all-electronic storage of newly created records by the year 2005.

        20.     The Director of OIS, in conjunction with the Secretary, prepare and submit for
                NARA approval an amended SF-115 which:

                a.      Provides for electronic storage of the Commission’s temporary and permanent
                        records and;

                b.      Provides the Commission with authority to destroy or transfer to NARA
                        paper copies of such records for which electronic copies exist.




                                                                          Office of Inspector General
                                                    24                    U.S. International Trade Commission
                                                                                     OIG-AR-05-00
IX.   ELECTRONIC RECORDS STORAGE (Continued)

      21.   The Secretary establish a procedure for identifying which storage boxes contain
            records that have been scanned by EDIS, so that these boxes can be disposed of if
            approved by NARA.

      22.   The Director of OIS incorporate requirements for electronic storage of records in all
            new IT projects, including new EDIS systems and Electronic Questionnaires.




                                                                  Office of Inspector General
                                             25                   U.S. International Trade Commission
                                                                                                                          OIG-AR-05-00
X.     SUMMARY OF ESTIMATED COST SAVINGS

The estimated savings that can be achieved by implementing the recommendations in this report are
summarized in Table 1. Immediate savings can be achieved by destroying records in storage that have
been microfilmed or that have expired review dates. Future savings can be realized by phasing out
the use of level P-1 storage area for records storage and by destroying records for which electronic
copies are available (subject to NARA approval). Additional miscellaneous savings can be achieved
by paying the contractor’s invoices on time and by periodically checking the contractor’s records to
delete charges for storing boxes that have been removed from the contractor’s inventory. In all, we
estimate that annual savings of more than $78,000 can eventually be achieved by implementing our
recommendations. Immediate one-time savings in the amount of $1,000 can be achieved by recovery
of excess storage charges from the contractor. Additional unknown savings can be achieved by
identifying the review dates for records without review dates and destroying those for which review
dates have expired. Appendix F further categorizes estimated cost savings in terms of questioned
costs and funds that could be put to better use.

        Table 1- Estimated Savings From Implementing Records Management Recommendations

IMMEDIATE ANNUAL SAVINGS

       Destruction of records in storage which have been microfilmed
                (4000 boxes @ $2.40 per year) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $9,600
       Destruction of records in storage with expired review dates
                (682 boxes @ $2.40 per year) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1,637

                                                                            Subtotal . . . . . . . . . . . . . . . . . . . . . . . . . . $11,237

FUTURE ANNUAL SAVINGS

       Freeing the P-1 space at USITC for other use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $62,250
       Destruction of records in storage for which electronic copies exist
                (2000 boxes @ $2.40 per year) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4,800

                                                                            Subtotal . . . . . . . . . . . . . . . . . . . . . . . . . . $67,050

                  Total Annual Savings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $78,287


IMMEDIATE ONE-TIME SAVINGS

       Recovery of excess storage charges
               (1000 boxes @ $.20 per month X 5 months) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $1,000




                                                                                                    Office of Inspector General
                                                                    26                              U.S. International Trade Commission
                                                                                         OIG-AR-05-00
XI.    SUMMARY OF RECOMMENDATIONS

Our findings indicate serious deficiencies in the Commission’s records management. To correct these
deficiencies we have made several recommendations. These recommendations are designed to:
        <      Bring the Commission’s current records management into compliance with Federal
               Regulations

       <       Put in place policies and procedures that will insure continued compliance with
               Federal Regulations

       <       Improve the effectiveness and efficiency of current records management.

       <       Take advantage of electronic storage technology to improve the Commission’s future
               records management

In summary, we recommend that:

       1.      The Director of OIS amend the position description of the “Senior Records
               Management Specialist” to accurately reflect the duties of her position including the
               additional duties of administering the records storage contract and serving as the
               Contracting Officer’s Technical Representative for the records storage contract.

       2.      The Director of Administration amend the position description of the Facilities
               Management Specialist to reflect his role in facilitating the transfer of records within
               the Commission.

       3.      The Director of OIS develop and administer a plan to provide adequate training of all
               Commission personnel on policies, responsibilities and techniques for implementation
               of record-keeping requirements.

       4.      The Director of Administration and Director of OIS revise USITC Directive 3150:

               a.     To assign responsibility for the records management program to the Director
                      of OIS and to designate him as the Commission’s Records Management
                      Officer. (Based on Chief Information Officer (CIO) responsibilities under the
                      Paper Work Reduction Act, this function should reside within the new CIO
                      office. Thus, this recommendation would be consistent with that concept and
                      consistent with our discussions later in this report on electronic records
                      management.);
               b.     To state the objectives of the Commission’s records management program;
               c.     To require an annual evaluation of the Commission’s records management
                      program and an annual review of its records maintenance program, including
                      an annual inventory of all records in contract storage;



                                                                      Office of Inspector General
                                                 27                   U.S. International Trade Commission
                                                                                       OIG-AR-05-00
XI.   SUMMARY OF RECOMMENDATIONS (Continued)
          d.   To assign the records management responsibilities of employees and office
               directors. Responsibility to implement the records management program at
               the office level should reside with the Office Director eliminating the Records
               Management Liaison Officer. (Office directors may choose to further delegate
               this responsibility.)
          e.   To specify official file locations and prohibit maintenance of records in
               unauthorized locations.
          f.   To resolve conflicts in retention and disposition schedules that now exist
               between this directive and the SF 115 and General Records Schedules. The
               revised Directive should incorporate the SF 115 and General Records
               Schedules by reference and require that records be disposed of in accordance
               with these controlling documents.

      5.     The Director of OIS, in conjunction with the Secretary to the Commission and the
             General Counsel, review material included in permanent records to ensure it meets the
             criteria for that classification, and if not, request approval of NARA to reclassify the
             material.

      6.     The Director of OIS, enlisting office directors as necessary, initiate an immediate
             review of records in contract storage to:
             a.     Bring currently stored Commission records into compliance with the
                    disposition schedules of the SF 115 and applicable General Records Schedules
                    by June 29, 2001.
             b.     Determine the appropriate review dates for records for which the contractor
                    records show no review date and ensure that appropriate disposition action
                    is taken;
             c.     Determine what records have been removed from storage and ensure that they
                    are removed from the contractor’s inventory;
             d.     Determine what records are in storage that have been microfilmed and for
                    which NARA has authorized destruction after verification of the microfilm
                    and take appropriate disposition action;
             e.     Insure that offices update the records for boxes remaining in storage to add
                    any necessary information that is missing or incomplete; and
             f.     Report the results of this effort to the Chairman as a follow-up to this review.




                                                                    Office of Inspector General
                                               28                   U.S. International Trade Commission
                                                                                          OIG-AR-05-00
XI.   SUMMARY OF RECOMMENDATIONS (Continued)

      7.    The Director of OIS provide a Commission wide information technology solution to
            automate the administrative requirements imposed on Office directors to implement
            proper records management. As a part of that information technology solution, an
            efficient method at the Commission level should be devised to reconcile Commission
            records with the records of contract storage to allow for proper administration of the
            contract. The information technology solution should provide for common data
            elements for the records of all offices and compatibility with the contractor’s
            database, allowing single entry update of both databases.

      8.    The Director of OIS seek approval of NARA for a modification to the SF 115 which
            identifies the existence of products in addition to documents as part of the evidentiary
            material in cases and provides appropriate disposition instructions for such material.

      9.    The Director of Administration seek recovery of excess storage charges from the
            contractor.

      10.   The Director of OIS work with the contractor to make retention schedule and record
            descriptions mandatory fields in the contractor’s databases.

      11.   The Director of OIS establish a new uniform storage box numbering system to be
            used by all offices which, at a minimum, will include identification of the Year in
            which a box was created and the office that created it.

      12.   The Director of OIS obtain and provide to offices a password to access the
            contractor’s on-line database and also provide a mandatory training session for office
            representatives on use of the on-line database.

      13.   The Director of OIS request from the contractor a breakout of the monthly invoices
            by office and circulate the relevant portions to the offices concerned.

      14.   The Director of Administration allocate storage costs to offices for management
            reporting purposes.

      15.   The Director of Administration initiate procedures for timely payment of contractor
            invoices so as to avoid interest charges.

      16.   The Director of Administration ensure that the records storage contract reflects the
            total estimated cost of the contract, that it is not a fixed price contract and that billings
            are to be based on a rate schedule which is made a part of the contract.




                                                                       Office of Inspector General
                                                29                     U.S. International Trade Commission
                                                                                     OIG-AR-05-00
XI.   SUMMARY OF RECOMMENDATIONS (Continued)

      17.   The Director of OIS, in consultation with the Secretary and Office of Administration,
            develop and implement a schedule for phasing out the use of level P-1 storage area
            for records storage.

      18.   The Director of OIS inform Office Directors of the charges incurred in regards to the
            storage contractor’s rate schedule and request that they develop an appropriate policy
            for minimizing the costs of records storage, retrieval, and destruction for their
            respective offices.

      19.   The Director of OIS incorporate in the Commission’s IRM Strategic Plan an objective
            of all-electronic storage of newly created records by the year 2005.

      20.   The Director of OIS, in conjunction with the Secretary, prepare and submit for
            NARA approval an amended SF-115 which:

            a.     Provides for electronic storage of the Commission’s temporary and permanent
                   records and;

            b.     Provides the Commission with authority to destroy or transfer to NARA
                   paper copies of such records for which electronic copies exist.

      21.   The Secretary establish a procedure for identifying which storage boxes contain
            records that have been scanned by EDIS, so that these boxes can be disposed of if
            approved by NARA.

      22.   The Director of OIS incorporate requirements for electronic storage of records in all
            new IT projects, including new EDIS systems and Electronic Questionnaires.




                                                                  Office of Inspector General
                                             30                   U.S. International Trade Commission
APPENDIX A                                                                                   OIG-AR-06-00

National Archives and Records Administration
General Records Schedules

Transmittal No. 8
December 1998

                                    GENERAL RECORDS SCHEDULES

                                                  Table of Contents

           •   Transmittal 8 - General Records Schedules, December 1998
           •   Introduction to General Records Schedules
           •   Table of Contents
           •   GRS 1 - Civilian Personnel Records
           •   GRS 2 - Payrolling and Pay Administration Records
           •   GRS 3 - Procurement, Supply and Grant Records
           •   GRS 4 - Property Disposal Records
           •   GRS 5 - Budget Preparation, Presentation, and Appointment Records
           •   GRS 6 - Accountable Officers' Accounts Records
           •   GRS 7 - Expenditure Accounting Records
           •   GRS 8 - Stores, Plant and Cost Accounting Records
           •   GRS 9 - Travel and Transportation Records
           •   GRS 10 - Motor Vehicle Maintenance and Operation
           •   GRS 11 - Space and Maintenance Records
           •   GRS 12 - Communications Records
           •   GRS 13 - Printing, Binding, Duplication, and Distribution Records
           •   GRS 14 - Informational Services Records
           •   GRS 15 - Housing Records
           •   GRS 16 - Administrative Management Records
           •   GRS 17 - Cartographic, Aerial Photographic, Architectural, and Engineering
               Records
           •   GRS 18 - Security and Protective Services Records
           •   GRS 19 - RESERVED
           •   GRS 20 - Electronic Records (Note: Not included in Transmittal 8, Dec. 1998)
           •   GRS 21 - Audiovisual Records
           •   GRS 22 - Inspector General Records - WITHDRAWN
           •   GRS 23 - Records Common to Most Offices Within Agencies
           •   GRS - Subject Index
           •   GRS - Forms Index




                                                              Office of Inspector General
                                                              U.S. International Trade Commission
APPENDIX C                                                                                            OIG-AR-06-00


              ANALYSIS OF REQUIREMENTS OF 36 CFR CHAPTER 12, SUBCHAPTER B

Requirement:      Ensure permanent records can be located and are preserved for transfer to the National Archives.
                  36 CFR §1220.36

Finding:          Permanent records are controlled by the Office of the Secretary, the General Counsel and the
                  Office of Administration. The records are being preserved, and can be located.

Conclusion:       USITC is compliant with this requirement.



Requirement:      Ensure that permanent records are preserved but that records no longer needed for current use
                  of an agency are promptly disposed of or retired.
                  36 CFR §1220.38

Finding:          USITC has not transferred any records to the National Archives or the Washington National
                  Records Center since 1997, nor has it converted permanent records to microfiche since 1996.
                  In 1983, NARA approved an amendment to the SF 115 for the microfiche of docketed case files.
                  USITC was authorized to destroy paper copies after microfiche is verified. In 1989, NARA
                  approved another amendment relative to these records which provides that microfiche copies of
                  closed docket files are to be transferred to the Washington National Records Center on an annual
                  basis and to the National Archives when 75 years old or sooner if restrictions on the records have
                  been lifted. USITC has not microfiched closed docket case files since 1996. In lieu thereof, the
                  files are scanned into electronic files and the paper copies stored either in the P-1 level of the
                  USITC building or at the contract storage location. USITC has preserved permanent records,
                  but has not disposed of or retired records no longer needed for current use in accordance with
                  the SF 115.

Conclusion:       USITC is NOT in compliance with this requirement.



Requirement:     Assign responsibility for development of the records management program; report the identity
                 of that office to NARA. 36 CFR §1220.40

Finding:         USITC Directive 3150, which was issued on June 23, 1977, designates the Director, Office of
                 Administration as the agency’s Records Management Officer and delegates to him authority to
                 implement the program. USITC Directive 1017, which was issued on July 27, 1998, sets forth
                 the mission and functions of the Office of Information Services and lists the records management
                 program as a function of that office. However, the latter directive does not change the specific
                 delegation of authority to the Director of Administration, and the Director of Administration has
                 continued to issue Administrative Notices relative to records management.

                 The Senior Records Management Specialist for USITC, who is responsible for overall planning,
                 coordination and operation of the records management program is located in the Office of
                 Information Services. Administration of the contract for off-site storage of records and liaison
                 between the contractor and the various USITC offices remains a function of the Facilities
                 Management Specialist in the Office of Administration, but is a minor part of his total
                 responsibilities.



                                                                       Office of Inspector General
                                                        1              U.S. International Trade Commission
APPENDIX C                                                                                          OIG-AR-06-00

Conclusion:    There is no apparent purpose served by the separation of records management functions between
               two USITC offices and we believe it contributes to a less than an optimal program.

               The records management function should properly be assigned to the new Office of Chief
               Information Officer. Pending establishment of that office, the function should be assigned to OIS,
               which is expected to be merged with the CIO office. Assignment of this function to OIS also
               reflects the intent to make greater use of electronic records storage technology.

               USITC Directive 3150 should be revised to assign responsibility for the records management
               program to the Director of OIS and to designate him as the Commission’s Records Management
               Officer.

               The Senior Records Management Specialist should assume the functions of overseeing the
               contract for off site storage of records.



Requirement:   Periodically evaluate the records management program relating to records creation, record
               keeping, maintenance and use of records, and records disposition. These evaluations shall include
               periodic monitoring of staff determinations of the record status of documentary materials and
               determine compliance with NARA regulations. 36 CFR §1220.42

Finding:       USITC directives do not require these periodic evaluations, and none have been done. On two
               occasions, extensive reviews of files have been made in conjunction with major relocations to
               identify files that could be disposed of rather than moved. However, those reviews did not
               constitute evaluations of the records management program.

Conclusion:    USITC is not in compliance with the requirement for periodic evaluations of the records
               management program.



Requirement:   Issue a directive establishing program objectives, responsibilities, and authorities. 36 CFR
               §1222.20

Finding:       USITC Directive 3150 does not establish records management objectives. Its stated purpose is
               only to establish and maintain a Records Control Schedule.

Conclusion:    USITC is not in compliance with the requirement to issue a directive establishing program
               objectives.



Requirement:   Ensure that adequate training is provided to all agency personnel on policies, responsibilities and
               techniques for implementation of record keeping requirements and the distinction between record
               and non-record material.
               36 CFR §1222.20

Finding:       USITC personnel have not been provided training on record keeping requirements.

Conclusion:    USITC is not in compliance with the requirement for record keeping training.




                                                                     Office of Inspector General
                                                      2              U.S. International Trade Commission
APPENDIX C                                                                                          OIG-AR-06-00

Requirement:   Develop and implement records schedules and obtain NARA approval of the schedules. 36 CFR
               §1222.20

Finding:       USITC has a SF 115 approved by NARA and uses Standard Schedules for records not covered
               by the SF 115. However, the retention periods assigned to records in storage do not always
               conform to those specified in the SF 115 and Standard Schedules. In addition, record
               classifications and retention schedules specified in USITC Directive 3150 do not always agree
               with the SF 115.

Conclusion:    USITC has established schedules as required, but is not implementing the schedules as approved.



Requirement:   Identify, develop, issue and periodically review record keeping requirements for records in all
               media. Requirements shall: identify and prescribe specific categories of documentary materials
               to be systematically created or received and maintained; prescribe the use of materials and
               recording techniques that ensure the preservation of records as long as they are needed by the
               Government; with the approval of the Archivist of the US, prescribe action for the final
               disposition of agency records when they are no longer needed for agency business. 36 CFR
               §1222.32

Finding:       Except for those records that are to be microfiched, USITC has adopted the policy that record
               copies are in paper form. Electronic records are to be printed and filed, and the electronic records
               then can be destroyed. NARA approval has been obtained for disposition actions. However,
               evidentiary material in some cases is in the form of a product, and no action has been taken to
               prescribe disposition of such materials.

Conclusion:    USITC has not developed record keeping requirements for records in all media. Requirements
               are needed relative to evidentiary material that is in the form of a product rather than a written
               document.



Requirement:   Formally specify official file locations for records in all media and prohibit maintenance of
               records in unauthorized locations. 36 CFR §1222.50

Finding:       USITC directives do not address the subject of record location.

Conclusion:    USITC is not in compliance with the requirement to formally specify official file locations for all
               records in all media and prohibit maintenance in other locations.



Requirement:   Review records maintenance program periodically to determine its adequacy; audit a
               representative sample of paper, audiovisual, electronic, cartographic and architectural files for
               duplication, misclassification or misfiling.
               36 CFR §1222.50

Finding:       There is no record of a review of the records maintenance program, nor could personnel
               connected with the program recall such a review having been made.

Conclusion:    USITC is not in compliance with the requirement for periodic reviews of the records maintenance
               program.



                                                                     Office of Inspector General
                                                      3              U.S. International Trade Commission
APPENDIX C                                                                                         OIG-AR-06-00

Requirement:   Issue an agency directive incorporating the disposition authorities approved by NARA, i.e.,
               SF115s and the General Records Schedules. 36 CFR §1228.50


Finding:       USITC Directive 3150 includes disposition authorities, but makes no reference to either the SF
               115 approved by NARA or the General Record Schedules. Further, the directive has not been
               updated since 1977 and is not in all aspects consistent with disposition approved by NARA. In
               some instances, the directive identifies documents as permanent records which are not even
               mentioned in the approved SF 115.

Conclusion:    USITC Directive 3150 has not been updated to incorporate and eliminate conflicts with
               disposition authorities approved by NARA.



Requirement:   Approved agency records schedules and general records schedules are mandatory. Records series
               or systems approved for destruction shall not be maintained longer without prior written approval
               of NARA. 36 CFR §1228.54

Finding:       USITC does not in all instances conform to the NARA-approved destruction schedules and has
               not obtained written approval for the deviations.

Conclusion:    USITC is not in compliance with NARA approved destruction schedules.



Requirement:   All records scheduled as permanent shall be transferred to the National Archives after the period
               specified on the SF 115. 36 CFR §1228.56

Finding:       The SF 115 provides that permanent records are to be offered to NARA at specified intervals,
               which range from 5 to 25 years, in some instances as soon as microfiche copies have been
               verified. Records are not being transferred to the National Archives when specified on the SF
               115. No records have been transferred since 1997.

Conclusion:    USITC is not in compliance with the requirement to transfer permanent records to the National
               Archives after the period specified in th SF 115.




                                                                    Office of Inspector General
                                                     4              U.S. International Trade Commission
APPENDIX D                                                                                  OIG-AR-06-00




                                 U.S. International Trade Commission
                                            Account # 46096
                                            Rate Addendum
                                         Effective May 1, 1999

Storage
  Cubic Foot Carton                                                              $0.20 per c.f.

Access Services
  Carton Indexing                                                               $0.54 per carton
  Carton Inventory Preparation                                                  $1.08 per carton
  Carton Retrieval (Customer Pickup)                                            $1.19 per carton
  Carton Retrieval (Normal)                                                     $1.19 per carton
  Copy Service                                                                  $0.50 per page
  Facsimile Service                                                             $1.00 per page
  File Retrieval (Indexed - Customer Pickup)                                    $1.19 per file
  File Retrieval (Indexed)                                                      $1.19 per file

  Indexing (File)                                                               $0.22 per file
  Mail Handling                                                                 $0.81 plus postage
  Refile Carton                                                                 $1.19 per carton

  Refiling (File Indexed)                                                       $1.19 per file

  Rush Access Service               Two Times Requested Access
                                     Service Charge

  Telephone Reference                                                           $1.00 per call
  Unsuccessful File Retrieval Attempt                                           $0.76 per file



                                                             Office of Inspector General
                                                 1           U.S. International Trade Commission
                                                                             OIG-AR-06-00

Courier Service
                                                                    $42.00

Delivery/Pickup Normal Scheduled Service                            $16.20 up to 3 cartons

                                                                    $1.15 each additional

Pickup/Delivery Priority Service         Two Times Requested
                                          Delivery Charge

                                                                    $60.00 additional

Other Services
                                                                    $0.22 per pound
Carton Permanent Removal/Destruction
                                                                    retrieval costs
Clerical/Research Service
Initial Conversion (Computer Indexing)                              $0.27 per carton
                                                                    $0.27 per carton
Minimum Monthly Storage

Containers/Supplies
Carton Cost (Standard)




                                                        Office of Inspector General
                                            2
       APPENDIX E                                                                                           OIG-AR-06-00




                                 USITC RECORDS IN CONTRACT STORAGE
                                          No. Without           No. With       Monthly Storage 1 Estimated Yearly
               Office            Total    Review Dates    Expired Review Dates      Cost           Storage Cost
General Counsel                  2887          392                   9                          $577.40             $6,928.80
Economics                         379          294                  84                           $75.80               $909.60
Investigations                    14            0                    0                            $2.80                $33.60
Office of Equal Employment
Opportunity 2                     14            8                   3                             $2.80                $33.60
Office of Information Services    34           26                   7                             $6.80                $81.60
External Relations                42            3                   0                             $8.40               $100.80
Office of the Secretary 3        2018         2014                  1                           $403.60             $4,843.20
Unfair Import Investigations      788          134                 41                           $157.60             $1,891.20
Industries                       1108          287                 353                          $221.60             $2,659.20
Office of Finance                 200          44                  25                            $40.00               $480.00
Office of Facilities
Management.                       93           72                    6                           $18.60              $223.20
Office of Inspector General 4     88           10                   10                           $17.60              $211.20
                        TOTAL    7665         3284                 539                       $1,533.00             $18,396.00




           1
              Storage cost is determined by multiplying the number of boxes in storage by $.20, the contractor’s monthly
       rate. Each month, the contractor bills storage for the number of boxes in storage at the beginning of the month.
       Additional charges are made for specific services as they are provided and for boxes stored for only part of the
       month.
            2
              Boxes belonging to this office were removed from storage prior to the audit, but were not removed from the
       contractor’s records because he was not notified that the removal was permanent.
            3
              The Office of the Secretary has additional boxes stored on the P-1 level which are not included in this
       count.
            4
              NARA has canceled the General Schedule for Inspector General records on which the review dates were
       based. Therefore, there currently is no authority to dispose of IG records.

                                                                             Office of Inspector General
                                                                             U.S. International Trade Commission
APPENDIX F                                                                                                   OIG-AR-06-00


                                       COST SAVINGS BY CATEGORY

I. Questioned Costs 1

   A. Annual

        1.   Microfilmed records eligible for destruction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $9,600

        2    Records in storage with expired review dates eligible for destruction . . . . . . . . . . . . . $1,637

        3    Disposition of records in storage for which electronic copies exist . . . . . . . . . . . . . . $4,800

                                                                                                   Total               $16,037

    B. One-time

        1. Recovery of contractor overcharges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $1,000

                                                                                                   Total                 $1,000

II. Funds that Could be Put to Better Use 2

    A. Annual

        1.   Freeing up P-1 space for other use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $62, 500

                                                                                                   Total               $62,500




    1
      Questioned Costs - means a cost that is questioned by the Office because of: (1) an alleged violation of a
provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing
the expenditure of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate
documentation; or (3) a finding that the expenditure of funds for the intended purpose is unnecessary or
unreasonable;

    2
       Funds that Could be Put to Better Use - means a recommendation by the Office that funds could be used more
efficiently if management of an establishment took actions to implement and complete the recommendation,
including: (1) reduction in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of
interest subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by implementing
recommended improvements related to the operations of the establishment, a contractor or grantee; (5) avoidance
of unnecessary expenditures noted in pre-award reviews of contract or grant agreements; or (6) any other savings
which are specifically identified.

                                                                              Office of Inspector General
                                                                              U.S. International Trade Commission
